                                          March 18, 2008




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    MEMORANDUM REPORT: NRC’S PLANNED
                            CYBERSECURITY PROGRAM (OIG-08-A-06)


As part of the Office of the Inspector General’s (OIG) audit of NRC’s Oversight of
Licensees’ Nuclear Security Officers, OIG interviewed agency staff to determine
how upcoming changes to NRC’s cybersecurity oversight processes might
impact the agency’s physical security inspection program. Through this work,
OIG identified an issue that could adversely affect NRC’s oversight of licensees’
cybersecurity programs for nuclear power plants. In particular, although NRC is
making progress in developing cybersecurity regulations and a corresponding
inspection program, it lacks a clear plan for the inspection program.

BACKGROUND

Cybersecurity refers to the branch of security that protects information
technology (IT) infrastructure. IT infrastructure encompasses not only the public
internet, but also the less visible systems and connections of the Nation’s critical
infrastructures, such as nuclear power plants and electric power distribution
grids. Cybersecurity is increasingly important to the nuclear power industry as
plants upgrade from analogue to digital control systems, which are vulnerable to
attacks by criminals and foreign governments. These cyber attacks can
temporarily disrupt computer networks, or more seriously, cause failure of public
services. According to the U.S. Central Intelligence Agency (CIA), for instance,
extortionists recently penetrated computer systems of utility companies outside
the U.S. and caused power outages that affected multiple cities.
                                                       Audit of NRC’s Planned Cybersecurity Program


In response to the current threat environment, Federal government agencies are
taking programmatic and policy actions to strengthen public and private sector
cybersecurity. The U.S. Department of Homeland Security (DHS), which is the
federal government’s focal point for cybersecurity, disseminates threat
information, and provides private industry with guidance and analytic tools to
assess cybersecurity measures and mitigate vulnerabilities. The U.S.
Department of Energy (DOE) conducts research and development, and develops
planning guidance, to help industries in the energy sector strengthen their
defenses against cyber threats. Most recently, the U.S. Federal Energy
Regulatory Commission (FERC) issued new cybersecurity regulations in January
2008 to give electric utilities a set of comprehensive standards for protecting the
power transmission infrastructure against cyber attacks.1

NRC began a rulemaking process in 2006 to address cybersecurity at nuclear
power plants. This rulemaking will amend the Code of Federal Regulations
(CFR)2 to incorporate elements of cybersecurity orders and guidance issued by
NRC following the terrorism incidents of September 11, 2001.3 The proposed
new requirements would require that nuclear power plant licensees and license
applicants implement a comprehensive cybersecurity program to ensure that
applicable computer systems are protected from cyber attacks. NRC plans
tentatively to oversee licensees’ compliance with these regulations by adding
cybersecurity inspections to the agency’s baseline security inspection program.4

ISSUES FOR CONSIDERATION

NRC is taking steps to develop cybersecurity regulations and a corresponding
inspection program, but has not determined how it will conduct and support
inspections. Without a clear implementation plan for cybersecurity inspections,
NRC could face difficulties in overseeing licensees’ cybersecurity programs,
thereby increasing the risks to nuclear power plant security.

Successful Implementation in 2010 Requires Advance Planning

NRC aims to begin inspections of licensee cybersecurity programs as early as
calendar year 2010, following completion of the ongoing rulemaking and a grace-
period for licensees to implement the new regulations. NRC’s main objectives in
establishing new cybersecurity regulations are, in order of priority:



1
  18 CFR 40, “Mandatory Reliability Standards for Critical Infrastructure Protection.”
2
  10 CFR 73.55, “Requirements for physical protection of licensed activities in nuclear power
reactors against radiological sabotage.”
3
  EA-02-026, Interim Compensatory Measures; and EA-03-086, Design Basis Threat.
4
  Inspection Procedure (IP) 71130, “Physical Protection.”



                                                2
                                                   Audit of NRC’s Planned Cybersecurity Program


    •   Maintaining safety and security;
    •   Increasing public confidence;
    •   Making NRC activities and decisions more effective, efficient, and realistic;
    •   Reducing unnecessary regulatory burden on stakeholders.

Internal NRC guidance recognizes that agency staff work most effectively when
appropriately deployed and fully engaged in fulfilling the agency’s mission. NRC
security inspectors are trained and experienced to carry out specific physical
security oversight tasks; cybersecurity, however, is a separate discipline
requiring unique training and subject matter expertise. NRC’s FY 2009
Performance Budget acknowledges a need to focus on recruiting and retaining
skilled personnel in these fields.5 In short, NRC has less than two years to
develop an implementation plan, and recruit and train qualified staff.

NRC Lacks Clear Plan for Cybersecurity Inspections

NRC has not finalized a clear plan for implementation of a cybersecurity
inspection program. New regulations governing nuclear power plant licensees’
cybersecurity programs are expected to take effect in calendar year 2010, and a
contractor has been tasked with writing inspection procedures. However, the
agency has yet to resolve several issues that will impact implementation of the
inspection program. In particular, agency management has not determined:

            •   respective roles of agency staff and contractors in conducting
                cybersecurity inspections;
            •   staff requirements for cybersecurity inspections and headquarters
                support, and;
            •   resources needed for initial training of cybersecurity inspectors,
                and for follow-on training to maintain technical proficiency.

Agency plans acknowledge the need to recruit and retain personnel in
cybersecurity, however, the agency’s plans vis-à-vis this objective are uncertain.

Inadequate Implementation Plan Could Compromise Physical and
Cybersecurity Inspection Programs

The absence of a clear plan could jeopardize implementation of a cybersecurity
inspection program in calendar year 2010. OIG believes that NRC management
should carefully consider the implications of adding cybersecurity to the baseline
security inspection program. First, inspecting licensees’ cybersecurity posture


5
 U.S. Nuclear Regulatory Commission Performance Budget Fiscal Year 2009, p.131.
http://www.nrc.gov/reading-rm/doc-collections/nuregs/staff/sr1100/v24/sr1100.pdf



                                             3
                                               Audit of NRC’s Planned Cybersecurity Program


requires a highly-trained staff to inspect and evaluate cybersecurity
infrastructure. Several regional baseline security inspectors expressed concern
that they are not qualified to perform the cybersecurity inspections. Specifically,
inspectors commented that their experience and training in physical security
does not directly apply to cybersecurity. Furthermore, agency staff commented
that there are limits to which non-cybersecurity professionals can be trained for
cybersecurity, which is a highly technical and dynamic field requiring continuous
training.

Second, the added workload associated with the cybersecurity inspection module
could adversely affect security inspectors’ efforts in other areas of physical
security oversight. Specifically, the time and effort spent by regional security
inspectors on cybersecurity efforts could divert their attention from other physical
security inspection tasks.

Third, without a clear implementation strategy for cybersecurity inspections, NRC
may lack sufficient qualified staff to oversee licensees’ cybersecurity programs.
Without robust cybersecurity oversight, NRC faces increased risk that
cyberattacks, human error, or technological failure could compromise IT systems
that are critical to nuclear power plant operations.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

1.   Develop and implement plans for a cybersecurity oversight program that
     captures skill set and workload requirements for cybersecurity inspections,
     and targets resources to prepare for program implementation in calendar
     year 2010.

AGENCY COMMENTS

During an exit conference on February 21, 2008, NRC officials agreed with the
finding and recommendation in the draft report. Clarifying comments on the draft
report were incorporated as appropriate. The agency opted not to submit formal
written comments to this report.

Please provide information on actions taken or planned on the recommendation
within 30 days of the date of this memorandum. Actions taken or planned are
subject to OIG follow-up, as stated in the attached instructions.




                                         4
                                              Audit of NRC’s Planned Cybersecurity Program
SCOPE AND METHODOLOGY

The OIG audit team reviewed relevant internal agency documents, such as
NRC’s inspection procedures, management guidance, budget plans, and
cybersecurity policy development documents. The team also reviewed
cybersecurity guidance developed and used by the nuclear industry to reinforce
NRC guidance. To understand other Federal agencies’ cybersecurity activities,
the team reviewed relevant documentation from the U.S. Federal Energy
Regulatory Commission, as well as reports from U.S. Government Accountability
Office.

Auditors interviewed headquarters staff in NSIR to learn their roles and
responsibilities as they pertain to the planned cybersecurity inspection program.
Auditors also interviewed region-based physical security inspectors to obtain
their views on cybersecurity and its relationship to NRC’s physical security
oversight processes.

This work was conducted from January 2008 through February 2008, in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. The work was conducted by: Beth Serepca, Team Leader;
Judy Gordon, Audit Manager; Paul Rades, Senior Analyst; and Jaclyn Storch,
Management Analyst.




                                        5
